February 11, 2011

JORDAN SMALL
VICE PRESIDENT, EASTERN AREA

SUBJECT: Audit Report – Facility Optimization: Eastern Area
        (Report Number DA-AR-11-002)

This report presents the results of our audit of facility optimization in the Eastern Area
(Project Number 10YG030DA000). The U.S. Postal Service Office of Inspector General
(OIG) initiated this audit from a random sample of districts nationwide. For the Eastern
Area, our objective was to identify opportunities to optimize existing real estate in the
Appalachian, Western Pennsylvania, and Western New York districts. See Appendix A
for additional information about this audit.

The Eastern Area uses 2,244 facilities with almost 11 million interior square feet (SF) in
the three districts noted above. While the area employs these facilities, it has
experienced a significant reduction in workload in recent years. From fiscal years (FYs)
2008 to 2010, mail volume in the Eastern Area has dropped 22 percent. Likewise, mail
volume in the Appalachian, Western Pennsylvania, and Western New York Districts
have decreased by 7 percent, 28 percent, and 22 percent, respectively. This reduction
in workload provides an opportunity to reevaluate space needs and identify potential
excess space.

Conclusion

The districts analyzed in the Eastern Area have 2.8 million more square feet than our
review of their workload suggests they need. The Postal Service could reduce interior
space through:

   Disposal – selling property
   Outleasing – leasing owned property
   Subleasing/Reassignment – reassigning leased property
   Development – investing in real estate projects

With two major efforts underway, the Postal Service has begun reducing interior space.
Specifically, the Eastern Area plans to reduce 1,080,630 SF of excess interior space
through approved optimization projects, with another 313,286 SF of excess interior
space scheduled for evaluation in FY 2011 for the three districts we reviewed. Although
it has made progress, the Postal Service can do more to reduce excess interior space
more quickly.
Facility Optimization: Eastern Area                                                                     DA-AR-11-002




The opportunity to reduce excess interior space in the reviewed districts exists because:

   Postal Service policy requires installation heads to report excess space but does not
    provide the necessary guidance to accomplish this task effectively; and
   The excess space reporting system does not track metrics such as dates or space
    conditions to allow for prioritizing disposal actions.

We estimate that if the Eastern Area eliminates1 the excess interior space we identified
in the Appalachian, Western Pennsylvania, and Western New York Districts, it could
realize $190,656,8822 over typical and remaining lease terms. We consider this amount
to be funds put to better use.3 See Appendix B for our detailed analysis of this topic and
Appendix C for our calculation of monetary impact.

Our audit also noted the Postal Service could more aggressively seek federal entities
needing interior space. In the districts reviewed, our analysis shows that excess space
identified at Postal Service facilities might accommodate 69 percent of the interior space
needs of current federal agencies. This opportunity exists because the Postal Service
has not capitalized on the priority status it has for filling federal agencies’ space needs,
which would allow it to reduce excess interior space and generate additional revenue.
See Appendix D for more information.

We recommend the acting vice president, Operations, Eastern Area, district managers,
area managers, and the Eastern Facility Service Office manager work in coordination
to:

1. Clarify procedures for reporting excess space.

2. Initiate disposal actions for excess space identified.

3. Pursue opportunities with federal agencies as an option to optimize excess property.




1
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
2
  The annualized savings is $19,065,688.
3
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square footage that is part of an approved node study.


                                                           2
Facility Optimization: Eastern Area                                          DA-AR-11-002




Management’s Comments

Management agreed with the finding that excess space exists in a number of facilities,
agreed to the recommendations made, and stated that corrective actions to address the
first two recommendations will be in place by March 2011. They conveyed that they will
complete corrective action to address the third recommendation by June 2011. While
management agreed to develop a more accurate process and additional metrics to
better manage excess space, as well as continue to make excess property available to
other federal agencies, management did not agree with the amount of excess space or
the potential monetary impact reported. Specifically, they disagreed with the
methodology used to calculate existing excess space, in addition to the data and cost
factors used to value the excess space and calculate monetary impact.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

    1. Unusable space such as basements and corridors.

    2. Unique operational functions not included in standard designs and inefficiencies
       in the current building layouts.
         
    3. Historic property.
         
    4. Parking and dock space requirements.
         
    5. Large inflexible retail lobbies.

In reference to the data and cost factors used in our calculations, management used the
Grafton WV Main Post Office and the Danville VA Courthouse to exemplify their general
disagreement with our methodology. They cited excess space existed to some degree
but was unusable or inaccessible due to security concerns. In addition, the cost to
convert space in poor condition may be impractical. As such, management believes the
accurate way to calculate monetary impact is by multiplying useable excess space by
sublease value less conversion cost. This calculated outcome should then be adjusted
for maintenance and utility savings.

Finally, management expressed the challenges facing the Postal Service when
disposing of property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior SF, which represents 16 percent of
buildings and 76 percent of interior square footage. This allows the Postal Service to
capture the largest opportunities for excess space that is usable. See Appendix E for
management’s comments in their entirety.




                                            3
Facility Optimization: Eastern Area                                            DA-AR-11-002



Evaluation of Management’s Comments

Considering the rapid decline of workload and the dynamic nature of excess space, the
OIG considers management’s comments responsive to the recommendations.
Management’s corrective actions over time should resolve the issues identified in the
report. With respect to the methodology used to calculate excess space, we did not
determine whether the excess space identified was usable, in part because Postal
Service systems do not identify usable areas. We agree that realty management
policies and systems need to be updated to define usable areas. According to
commercial realty standards,4 usable areas are generally measured from “paint to paint”
inside the permanent walls to the middle of partitions. No deductions are made for
columns and projections necessary to the building. Our calculations reflect these
standards.

As it relates to the usability of basements, we note that Postal Service Headquarters
and many federal agency buildings use basement space. We did not include allowances
for existing functions, building layout inefficiencies, and inflexible spaces because the
Postal Service’s current space standards did not specify these allowances. Our audit
focused on interior excess space, thus, enclosed parking and dock spaces were outside
the scope of the audit.

Management also conveyed that we did not consider the historic nature of buildings and
the challenges or costs associated with making changes to these buildings. While we
agree that there are properties of the Postal Service that are historic in nature, we do
not feel this has a large impact in the presentation of our results. The number of eligible
historic buildings listed in the Postal Service’s systems account for less than 1 percent
of their properties. Also, while the Postal Service is required to consult with historical
organizations, they are not bound by these consultations or decisions.

The standard building design matrix served as the basis for determining earned space.
During the on-site visits, we inquired whether there were unique operations conducted
at the facility and whether they were allotted the necessary space for those functions.
Conservatively, we did not consider performance measures such as street efficiency or
alternate access sales channels which would decrease the earned facility size and
increase excess space. We acknowledge that security is a factor when optimizing
excess space for a site-specific solution. In these cases, security challenges may be
mitigated by a comprehensive solution for excess space at sites within an acceptable
radius.

The Postal Service does not have a methodology of determining “build-out” costs at a
national, area or district level. As such, to determine build-out cost we used the average
build-out costs for the district as presented in their node studies. We note that build-out
costs are negotiable and lessees, at times, absorb the cost of conversion. We built in
several different tolerances relating to the size of excess space at sites reviewed and
considered the marketability of properties within the districts. Further, the multiple
4
    www.boma.org.


                                             4
Facility Optimization: Eastern Area                                                DA-AR-11-002



actions, such as lease terminations, disposals, and space/lease reductions within the
approved node studies were acknowledged and reflected in our monetary impact
calculations. We recognized realty market conditions and discounted our excess space
calculations by the national commercial vacancy rate of 14 percent. Therefore, we
consider our presentation of the level of excess space and value a reasonable estimate
of the opportunity loss associated with unproductive assets.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties greater than 10,000 SF. We believe that once
management modernizes its realty management systems to have greater visibility of
excess space, it will be able to better prioritize disposal actions associated with its full
building inventory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments


cc: Megan J. Brennan
    Tom A. Samra
    Robert A. Cavinder
    Kathleen Burns
    Charles P. McCreadie
    Corporate Audit and Response Management




                                               5
Facility Optimization: Eastern Area                                                DA-AR-11-002




                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Eastern Area leases or owns 2,244 facilities with more than 11 million interior
square feet to move mail in the Appalachian, Western Pennsylvania, and Western New
York Districts. Consolidating or closing Postal Service facilities is a widely discussed
topic because of declining mail volume and the resulting financial condition of the Postal
Service. In response, the Postal Service’s Facilities and Retail Management
organizations have implemented initiatives to optimize space, namely, the Facility
Optimization Program and the Station and Branch Optimization Consolidation (SBOC)
program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. The process entails identifying, investigating,
analyzing, and approving space before executing the approved optimization action. The
Eastern Area has two approved optimization studies in the Appalachian District, eight in
the Western Pennsylvania District, and two in the Western New York District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue. In addition to using the
ongoing SBOC program and node studies,5 the districts have begun consolidating
space. For example:

      The Appalachian District has initiated reviews of delivery optimization. At the time of
       our review, the Appalachian District initiated delivery unit optimization, a
       cross-functional effort to streamline delivery and post office operations.

      The Western Pennsylvania District has moved operations from the Wilkinsburg
       Branch into the Penn Hills Branch, resulting in cost savings and elimination of a
       lease. This district has also moved carrier operations from some facilities and placed
       them in facilities identified as having excess space. Additionally, this district does
       actively sublease space in some of its facilities and the Downtown Station in Erie,
       PA is for sale.

In October 2010, the Postal Service consolidated optimization efforts to manage
excess space. The goal is to manage the excess space portfolio or all space types in
one overall optimization effort.

Currently, the Postal Service has a program in place to optimize carrier delivery
facilities through the use of node studies. However, the Postal Service will now include
5
    Studies of consolidation for sites in a geographic radius.


                                                                 6
Facility Optimization: Eastern Area                                                                   DA-AR-11-002



mail processing plants, retail facilities, small delivery units, administrative space, and
carrier delivery facilities in one overall optimization effort. The goal is to manage the
excess space portfolio for all space types in one overall initiative. This integrated effort
between Facilities headquarters and the field offices will use computer modeling and
equipment analysis with local analysis and metro planning to form a headquarters and
district/area partnership.

To supplement and expand existing Postal Service initiatives, the OIG developed a real
estate risk model (RERM) to identify and prioritize emerging facility risk. The risk model
measures facility performance results by district for the following nine metrics:

                                 Table 1 – Risk Metrics
                                    RERM Metrics
Ratio of Mail Volume to Interior SF            Excess Postal Service Identified
                                               Interior Space
Ratio Revenue to Interior SF                   Excess Land
Ratio of Total Expense to Interior SF          Facility Condition
Ratio of Employees to Interior SF              Density, Geographic Location
Ratio of Retail Revenue to Total Expense

We randomly selected 17 districts to study excess space nationally and selected three
in the Eastern Area.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s Eastern Area to
optimize existing real estate. We visited 72 of 2,209 facilities in the Appalachian, Western
Pennsylvania, and Western New York Districts, representing 49 percent of the
OIG-calculated excess space when comparing actual interior space to Postal Service
space standards. The scope of the audit primarily included main post offices, carrier
annexes, stations, branches, and mail processing facilities. To accomplish our objective
we visited selected facilities, conducted interviews, and examined other relevant
materials.

To calculate an earned6 facility size, we compared the workload data from Postal Service
databases7 to the number of carrier routes, the number of rented post office box sections,
and peak window use. We based earned facility size on Postal Service criteria8 for
planning new space projects, which differ from existing Postal Service initiatives,9
because it focuses on the total facility size not specific retail or delivery operations. We


6
  We used Postal Service criteria established in March 2007 and outlined in a letter issued by the senior vice
president of Operations. In support of these new criteria, the headquarters Facility Group, Planning and Approval,
designed matrices to assist with the space requirements of planned facilities.
7
  WebBATS Monthly Summary Data for issued Post Office Box information, Intelligent Mail and Address Quality
Delivery Statistics Summary for route information, and Retail Data Mart for earned peak modeled window staffing.
8
  Space Requirements Matrix for Non-Flat Sequencing System offices.
9
  SBOC and Facilities Optimization programs.


                                                          7
    Facility Optimization: Eastern Area                                                           DA-AR-11-002



    calculated excess space by taking the difference between earned facility size and actual
    interior square footage reported in the electronic Facilities Management System (eFMS).

    We conducted this performance audit from June 2010 through January 2011 in
    accordance with generally accepted government auditing standards and included such
    tests of internal controls as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management on January 14, 2011, and included
    their comments where appropriate.

    We assessed the reliability of facility-related data by verifying the accuracy of computer-
    generated information through observations during facility tours and interviewing agency
    officials knowledgeable about the data. We determined the data was sufficiently reliable
    for the purposes of this report.

    PRIOR AUDIT COVERAGE

    The following audit reports are relevant to the Postal Service’s facility infrastructure:

                      Report                Final Report         Monetary
 Report Title                                                                           Report Results
                      Number                    Date              Impact
Facility           DA-AR-10-008           8/25/2010            $157,963,990   The OIG identified 1.98 million SF of
Optimization:                                                                 excess space. Management agreed
Northern New                                                                  with the recommendations but
Jersey District                                                               disagreed with the monetary impact.
Facility           DA-AR-10-009           8/25/2010            $23,517,019    The OIG identified 740,000 SF of
Optimization:                                                                 excess space. Management agreed
Chicago                                                                       with recommendations but disagreed
District                                                                      with the monetary impact.
Facility           DA-AR-10-010           8/25/2010            $446,258,222   The OIG identified 2.4 million SF of
Optimization :                                                                excess space. Management agreed
New York                                                                      with recommendations but disagreed
District                                                                      with the monetary impact.
Restructuring      GAO-09-937SP           7/28/2009            None           The Government Accountability Office
the U.S. Postal                                                               (GAO) added the Postal Service’s
Service to                                                                    financial condition to the list of
Achieve                                                                       high-risk areas needing Congress’
Sustainable                                                                   attention and the executive branch to
Financial                                                                     achieve broad-based transformation.
Viability                                                                     It recognized the need to reduce the
                                                                              facility infrastructure. There was no
                                                                              management response in the report.




                                                           8
    Facility Optimization: Eastern Area                                                         DA-AR-11-002




                      Report                Final Report        Monetary
 Report Title                                                                         Report Results
                     Number                     Date             Impact
Federal Real       GAO-09-801T            7/15/2009            None        Federal agencies have taken some
Property: An                                                               positive steps to address real property
Update on                                                                  issues but some core problems
High Risk                                                                  leading to the designation of this area
Issues                                                                     as high risk continue to persist. There
                                                                           was no management response in the
                                                                           report.
Network            GAO-09-674T            6/20/2009            None        In a number of areas, the Postal
Rightsizing                                                                Service will require actions, such as
Needed to                                                                  rightsizing its retail and mail
Help Keep                                                                  processing networks by consolidating
USPS                                                                       operations and closing unnecessary
Financially                                                                facilities. Management generally
Viable                                                                     agreed with the accuracy of the
                                                                           statements and provided technical
                                                                           comments, which were incorporated.




                                                           9
Facility Optimization: Eastern Area                                             DA-AR-11-002



                              APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the Eastern Area

Based on facility space requirements, we calculated that the districts reviewed in the
Eastern Area maintain 2.8 million more square feet than they need for current
operational workload. As depicted in Chart 1, excess space was at least 39 percent of
the total interior square footage.

                  Chart 1 – Area Interior and Excess Space Comparison




The breakdown of interior square footage and OIG-calculated excess for the 72 visited
facilities in the Eastern Area is represented in Table 2. Main post offices contributed to
54 percent of the excess space, while branches, stations, carrier annexes contributed to
smaller amounts (with 19, 17, and 7 percent, respectively). Plants were optimizing
space by integrating workload from surrounding stations.

                       Table 2 – Excess Space by Facility Type Visited
                             Facility                                 OIG-       Interior
     Facility Type            Type      Percentage    Percentage   Calculated    Square
                             Count       of Count      of Excess   Excess SF     Footage
Main Post Office               39          54%            56%       548,493      960,693
Branch                         14           19             15       148,808      280,008
Station                        12           17             19       186,225      270,225
Carrier Annex                   5            7              9        83,237      451,852
Finance Station                 2            3             1%         7,944       10,844
         Total                 72         100%          100%         974,707    1,973,622




                                                 10
    Facility Optimization: Eastern Area                                            DA-AR-11-002



    To highlight excess space in the Eastern Area, Illustration 1 depicts two facilities with
    vacant offices and excess space. The Grafton Main Post Office is Postal Service-owned
    and has delivery and retail operations and vacant space. The Courthouse Danville Post
    Office is another Postal Service-owned facility with delivery operations and significant
    vacant space on the workroom floor. According to our calculations, sites visited
    contained excess interior space ranging from 1,393 SF to 64,600 SF.

                          Illustration 1 – Examples of Excess Space
Grafton Main Post Office                         Courthouse Danville
260 W Main St                                    700 Main St
Grafton, WV 26354-9998                           Danville, VA 24541-9993
Interior Square Footage: 17,575                  Interior Square Footage: 47,172
OIG-Calculated Excess SF: 13,675                 OIG-Calculated Excess SF: 45,172




            Entire floor of vacant offices                      Unused workroom floor

    Causes for Excess Interior Space

    The opportunity to optimize excess interior space in the Eastern Area exists because:

            Postal Service policy requires installation heads to report excess space but does
             not provide the necessary guidance to accomplish this task effectively; and
            Facility systems do not track metrics such as dates or space conditions to allow
             effective management of excess space.

    Guidance Can Be Improved

    A review of the facility database user guide’s workload-driven space requirements show
    the guide does not provide sufficient guidance for identifying excess space. For
    example, the facility database space survey asks installation heads to objectively
    answer “Do you have any vacant space in your facility that is in leasable condition and



                                                 11
Facility Optimization: Eastern Area                                             DA-AR-11-002



has access that does not compromise the security of the operation?” without providing
further guidance or referencing space standards. Although we identified excess interior
space at the 72 Postal Service facilities we visited, we found only one location that
answered “yes” to the vacant leasable space survey question. Further, interviews
revealed that Operations employees were unaware of how to identify excess space at
their facilities. As a result, we identified more than 2.8 million SF of excess interior
space in the Appalachian, Western Pennsylvania, and Western New York Districts.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service’s workload has declined, resulting in significant excess space.
However, the electronic system that manages facility space does not collect or monitor
metrics such as length of time that space is underused or vacant and the condition of
excess space to prioritize disposal actions efficiently.

For comparison, we benchmarked Postal Service facility practices against the General
Services Administration’s (GSA’s) realty management practices and found the GSA
“ages” its available space for tracking, monitoring, and decision-making. The Postal
Service is not able to age excess space because it does not collect dates on entry.

The GSA’s Public Buildings Service also manages its leased portfolio by focusing on
four primary areas: reducing vacancy, managing lease administration expenses,
managing customer requirements, and analyzing market trends. Similarly, GSA-owned
facilities are monitored and analyzed using performance metrics such as revenue, funds
from operations, operating costs, vacancy, net operating income, and return on equity.
The Postal Service’s facility management systems are not able to manage property this
way. For example, rents from leases or subleases are tracked manually using electronic
spreadsheets.

Additionally, because the Postal Service’s eFMS calculates space based on delivery
and retail metrics, the excess space reported for processing and distribution plants is
inaccurate. Therefore, eFMS is not reliable for identifying how much excess space is
available in postal plants. The Postal Service plans to measure plants and update its
facility database. To complete this task, industrial engineers, working with local in-plant
support, use blueprints to identify processing equipment, staging areas, and manual
work areas as well as to identify excess space.

We estimate that if the Eastern Area initiated disposal actions for the districts we
reviewed it could realize $190,656,88210 over typical and remaining lease terms. We
consider this amount funds that could be used more efficiently by implementing
recommended actions. See Appendix C for the monetary impact calculation and
assumptions.




10
     The annualized savings is $19,065,688.


                                              12
         Facility Optimization: Eastern Area                                                                    DA-AR-11-002



         Opportunity to Fill Federal Space Needs

         The GSA is the nation's largest public real estate organization. It provides workspace for
         more than 1.2 million federal workers through its Public Buildings Service. According to
         the Code of Federal Regulations (CFR), when GSA-controlled space is unavailable,
         federal agencies must extend priority consideration to available space in Postal Service
         buildings.11

         Our audit noted that the Postal Service could more aggressively seek federal entities to
         fill excess space. Table 3 illustrates the potential fulfillment opportunities in each of the
         three districts we reviewed in the Eastern Area. Specifically, it shows that on behalf of
         federal entities, the GSA leases primarily from the commercial sector rather than from
         the Postal Service. Space requirements were greater than the excess space identified
         in Postal Service facilities. The GSA paid considerably more per square foot than the
         value assigned to the Postal Service space.12

                             Table 3 – Postal Service Excess Space Lease Opportunity
                                                                          Existing                                 Number of GSA
                     GSA                                                   GSA/         GSA         USPS           Leases Excess
                    Leased        USPS         GSA         USPS            USPS      Average SF    Average           Space May
  Districts           SF        Excess SF      Count       Count          Leases        Cost       SF Value        Accommodate
Appalachian        2,334,985       933,750          145        416               4        $19.48        $9.32      91 of 145   63%
Western NY         1,448,916       754,500           90        247               1         23.70        11.93       68 of 90       76
Western PA         1,668,874     1,226,187          129        509               1         20.28        19.99      91 of 129       71
Totals             5,452,775     2,914,437          364      1,172               6        $20.84       $14.48    250 of 364    69%



         Table 3 and Appendix D also illustrate the strong correlation between space
         leased by the GSA and the ability of Postal Service to significantly accommodate
         federal space needs. For the districts reviewed, we estimate that Postal Service
         excess space may accommodate 250 of 364 current federal leases (69 percent).
         However, we understand that more information would be needed before
         determining whether the Postal Service’s excess space would be suitable.




         11
              41 CFR 102-73.25
         12
              We assigned Postal Service excess space a value based on historical lease rates in the same geographic areas.


                                                                     13
             Facility Optimization: Eastern Area                                                                                                                                        DA-AR-11-002



                                               APPENDIX C: MONETARY AND OTHER IMPACT FUNDS PUT TO BETTER USE

             Western New York Excess Interior Space Monetary Impacts
Project year                                             0                    1                  2                  3                   4                  5                      6                  7                 8               9 
Fiscal year                                         2011                 2012               2013               2014                2015               2016                   2017               2018              2019            2020 
                                                                                                                                                                                                                             
Owned                                                                                                                                                                                                                        
Sublease Value                                ‐$20,047,819         $6,389,254           $6,389,254         $6,389,254          $6,389,254         $6,389,254             $6,389,254         $6,389,254        $1,597,314   
Custodial Savings                                                  $1,054,128           $1,054,128         $1,054,128          $1,054,128         $1,054,128             $1,054,128         $1,054,128         $263,532   
Utility Savings                                                    $1,163,390           $1,190,148         $1,217,521          $1,245,524         $1,274,171             $1,303,477         $1,333,457         $341,032   
Leases Expiring FY 2011                                                                                                                                                                                                      
Sublease Value                                  ‐$836,464              $266,582                                                                                                                                              
Custodial Savings                                                       $43,982                                                                                                                                              
Utility Savings                                                         $48,541                                                                                                                                              
Leases Expiring After FY 2011                                                                                                                                                                                                
Sublease Value                                 ‐$7,355,930         $2,344,340           $2,344,340         $2,238,855          $2,104,467         $2,076,375              $432,223           $350,989          $263,540         $156,432 
Custodial Savings                                                      $386,780          $386,780           $369,376            $347,204           $342,570                $71,310            $57,908           $43,480          $25,809 
Utility Savings                                                        $426,870          $436,688           $426,631            $410,246           $414,079                $88,178            $73,252           $56,267          $34,167 
Subtotals                                     ‐$28,240,213        $12,123,866          $11,801,338        $11,695,765         $11,550,823        $11,550,576             $9,338,571         $9,258,988        $2,565,164        $216,408 
Cash Flows @ Sublease Efficiency              ‐$24,484,265        $10,511,392          $10,231,760        $10,140,228         $10,014,563        $10,014,350             $8,096,541         $8,027,543        $2,223,997        $187,626 
Rate 
                                                                                                                                                                                                                             
Discounted at Postal Service cost             ‐$24,484,265        $10,119,270           $9,482,618         $9,047,209          $8,601,771         $8,280,710             $6,445,154         $6,151,845        $1,640,763        $133,258 
of borrowing 


                                                                                        Net Present Value:                   $35,418,333                                             
                                     Build-Out Costs SF                                                    $37.43        Utilities Savings SF per Year                                      $2.17

                                     Lease Savings SF per Year                                             $11.93        Utility Cost Escalation Rate                                       2.30%
                                     Postal Service Cost of
                                                                                                          3.875%         Custodial Rate SF                                                  $1.97
                                     Borrowing




                                                                                                                 14
               Facility Optimization: Eastern Area                                                                                                                                     DA-AR-11-002



               Western Pennsylvania Excess Interior Space Monetary Impacts
Project year                                        0                   1                  2                    3                 4                  5                       6                    7                8               9 
Fiscal year                                    2011                2012               2013               2014                2015               2016                    2017                2018              2019            2020 
                                                                                                                                                                                                                         
Owned                                                                                                                                                                                                                    
Sublease Value                           ‐$10,518,480         $15,848,539        $15,848,539        $15,848,539         $15,848,539        $15,848,539             $15,848,539         $15,848,539        $3,962,135   
Custodial Savings                                              $1,342,002         $1,342,002         $1,342,002          $1,342,002         $1,342,002              $1,342,002          $1,342,002         $335,500   
Utility Savings                                                $1,374,782         $1,406,402         $1,438,750          $1,471,841         $1,505,693              $1,540,324          $1,575,752         $402,999   
Leases Expiring FY 2011                                                                                                                                                                                                  
Sublease Value                            ‐$1,375,523          $2,072,545                                                                                                                                                
Custodial Savings                                               $175,496                                                                                                                                                 
Utility Savings                                                 $179,783                                                                                                                                                 
Leases Expiring After FY 2011                                                                                                                                                                                            
Sublease Value                            ‐$4,044,139          $6,093,437         $6,093,437         $4,589,320          $3,698,062         $3,686,910               $595,810            $496,316          $496,316         $460,339 
Custodial Savings                                               $515,972           $515,972           $388,608            $313,140           $312,195                  $50,451             $42,026          $42,026          $38,980 
Utility Savings                                                 $528,576           $540,733           $416,624            $343,436           $350,276                  $57,907             $49,347          $50,481          $47,899 
Subtotals                                ‐$15,938,142         $28,131,132        $25,747,085        $24,023,843         $23,017,020        $23,045,615             $19,435,034         $19,353,981        $5,289,457        $547,218 
Cash Flows @ Sublease Efficiency         ‐$13,818,369         $24,389,691        $22,322,723        $20,828,672         $19,955,757        $19,980,548             $16,850,175         $16,779,902        $4,585,959        $474,438 
Rate 
                                                                                                                                                                                                                         
Discounted at Postal Service cost        ‐$13,818,369         $23,479,847        $20,688,313        $18,583,541         $17,140,522        $16,521,604             $13,413,379         $12,859,147        $3,383,311        $336,962 
of borrowing 



                                                                                 Net Present Value:                 $112,588,257                                                
                               Build-Out Costs SF                                                   $13.27         Utilities Savings SF per Year                                          $1.73
                               Lease Savings SF per Year                                            $19.99         Utility Cost Escalation Rate                                          2.30%

                               Postal Service Cost of Borrowing                                     3.875%         Custodial Rate SF                                                      $1.69




                                                                                                           15
           Facility Optimization: Eastern Area                                                                                                                                  DA-AR-11-002



           Appalachian Excess Interior Space Monetary Impacts
Project year                                               0                  1                  2                    3                4                 5                 6                 7               8              9 
Fiscal year                                        2011                  2012               2013                2014              2015              2016              2017              2018            2019           2020 
                                                                                                                                                                                                                   
Owned                                                                                                                                                                                                              
Sublease Value                                ‐$5,924,703            $4,363,817         $4,363,817          $4,363,817        $4,363,817        $4,363,817        $4,363,817        $4,363,817    $1,090,954   
Custodial Savings                                                     $811,668           $811,668            $811,668          $811,668          $811,668          $811,668          $811,668         $202,917   
Utility Savings                                                       $719,350           $735,895            $752,820          $770,135          $787,848          $805,969          $824,506         $210,867   
Leases Expiring FY 2011                                                                                                                                                                                            
Sublease Value                                 ‐$356,216              $262,370                                                                                                                                     
Custodial Savings                                                       $48,801                                                                                                                                    
Utility Savings                                                         $50,547                                                                                                                                    
Leases Expiring After FY 2011                                                                                                                                                                                      
Sublease Value                                ‐$4,713,194            $3,471,485         $3,471,485          $3,208,854        $2,877,680        $2,737,118        $1,338,037         $855,447         $531,773  $284,366 
Custodial Savings                                                     $645,694           $645,694            $596,845          $535,247          $509,103          $248,874          $159,113          $98,910        $52,892 
Utility Savings                                                       $668,803           $684,185            $646,970          $593,543          $577,536          $288,821          $188,899         $120,126        $65,715 
Subtotals                                    ‐$10,994,113           $11,042,534        $10,712,745         $10,380,975        $9,952,091        $9,787,090        $7,857,187        $7,203,451    $2,255,548  $402,974 
Cash Flows @ Sublease Efficiency Rate         ‐$9,531,896            $9,573,877         $9,287,949          $9,000,305        $8,628,463        $8,485,407        $6,812,181        $6,245,392    $1,955,560  $349,378 
                                                                                                                                                                                                                   
Discounted at Postal Service cost of          ‐$9,531,896            $9,216,729         $8,607,911          $8,030,159        $7,411,213        $7,016,451        $5,422,755        $4,786,107    $1,442,723  $248,140 
borrowing 



                                                                             Net Present Value:                       $42,650,292                                           
                             Build-Out Costs SF                                                  $12.65               Utilities Savings SF per Year                                  $1.79
                             Lease Savings SF per Year                                                $9.32           Utility Cost Escalation Rate                                  2.30%
                             Postal Service Cost of
                                                                                                3.875%                Custodial Rate SF                                              $1.73
                             Borrowing




                                                                                                              16
Facility Optimization: Eastern Area                                                                     DA-AR-11-002



Value Assigned to the Excess Space

Table 4 shows the value per square foot for each district. We calculated this figure by
dividing total interior square footage by total lease costs.

Utility Costs Associated with the Excess Space

Table 4 shows the utility cost per square foot for each district. Using the information
from line 42 of the financial performance report (FPR), we calculated this figure by
dividing the total annual utility expenses by the district’s total interior square footage,
with a cost escalation rate of 2.3 percent.

Maintenance Costs Associated with the Excess Space

Table 4 shows the maintenance cost per square foot for each district. We calculated this
cost by dividing the total annual maintenance expenses13 by the district’s total interior
square footage. However, we reduced the cost by 50 percent, based on previously
identified savings in a custodial maintenance audit.14

Build-Out Costs Associated with Implementing Optimization Actions

Table 4 shows the build-out cost per square foot for each district. We calculated this
figure by dividing the build-out costs for all approved optimization node studies in each
district by the total reduction in square footage identified in the approved node studies.

For the Appalachian, Western Pennsylvania, and Western New York Districts, we
calculated the average build-out cost and then removed “outliers,” such as items with no
build-out costs or items whose build-out cost per square foot was not aligned with the
emerging range of costs to generate a new build-out cost.

                            Table 4 – Square Footage Costs by District
                                   Lease        Utility   Maintenance                           Build-out
            District              Cost/SF      Cost/SF      Cost/SF                             Cost/SF15
 Appalachian                           $9.32               $1.79               $3.47              $12.65
 Western Pennsylvania                 $19.99               $1.73               $3.38              $13.27
 Western New York                     $11.93               $2.17               $3.94              $37.43




13
   eFlash (Labor Distribution Code 38, salary and benefits) + FPR Line 3F Contract Cleaners Costs.
14
   Custodial Maintenance (Report Number DA-AR-09-011, dated August 13, 2009).
15
   Although build-out costs are negotiable and at times, paid for by the lessor, these costs ranged from $0 per SF to
$52.84 per SF in the node studies analyzed.


                                                          17
Facility Optimization: Eastern Area                                          DA-AR-11-002



Ownership of Facility and Term Years

We categorized facilities in the district by ownership – leased versus Postal
Service-owned. We further grouped the leased properties by the number of term years
remaining on the lease.

We calculated impact for leases expiring before the end of FY 2011 based on the
assumption that these leases would be renewed for the standard 5-year period. We
calculated leases expiring after October 1, 2011, for the remaining lease term. We
calculated Postal Service-owned facilities over a period of 7.3 years, which was the
historical national average lease term.

Sublease Efficiency Rate

We identified the national commercial property vacancy rate from the National Realty
Association for industrial and retail space as 13.3 percent, so we reduced the net
present value savings realization to an 86.7 percent “success rate.”




                                           18
Facility Optimization: Eastern Area                                          DA-AR-11-002



               APPENDIX D: GSA-LEASED PROPERTIES COMPARED TO
                        POSTAL SERVICE EXCESS SPACE

Appalachian District




                                                                                      

The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The following table provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.

                                                                  GSA           OIG
                                                  Building       Leased      Identified
                                                    Size        Facilities    Excess
                                                        1,000           14          217
                                                        5,000           42          164
                                                       10,000           42            19
                                                       20,000           21            11
                                                       30,000            9             2
                                                       40,000            5             1
                                                       50,000            1             1
                                                 More                   11             1
                                                 Total Count           145          416




                                           19
Facility Optimization: Eastern Area                                           DA-AR-11-002



Western Pennsylvania District




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The following table provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.

                                                                  GSA            OIG
                                                  Building       Leased       Identified
                                                    Size        Facilities     Excess
                                                        1,000            19          325
                                                        5,000            37          125
                                                       10,000            42            35
                                                       20,000            16            16
                                                       30,000             6             2
                                                       40,000             1             1
                                                       50,000             1             3
                                                 More                     7             2
                                                 Total                 129           509
 
                                                 Count



                                           20
Facility Optimization: Eastern Area                                          DA-AR-11-002



Western New York District




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The following table provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.
                                                                GSA             OIG
                                                  Building     Leased        Identified
                                                    Size      Facilities      Excess
                                                        1,000         9             109
                                                        5,000       20                94
                                                       10,000       24                25
                                                       20,000       11                15
                                                       30,000         9                3
                                                       40,000         9                1
                                                       50,000         0                0
                                                 More                 8                0
                                                 Total              90              247
                                                 Count



                                           21
Facility Optimization: Eastern Area                          DA-AR-11-002



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                        22
Facility Optimization: Eastern Area        DA-AR-11-002




                                      23
Facility Optimization: Eastern Area        DA-AR-11-002




                                      24
Facility Optimization: Eastern Area        DA-AR-11-002




                                      25
Facility Optimization: Eastern Area        DA-AR-11-002




                                      26
